                                                    U.S. Department of Justice


                                                              United States Attorney
                                                              Eastern District of New York

                                                    271 Cadman Plaza East
                                                    Brooklyn, New York

FOR IMMEDIATE RELEASE                       November 29, 2010

Contacts:

Robert Nardoza
United States Attorney’s Office
(718) 254-6323

                                    PRESS RELEASE

         SCHIAVONE CONSTRUCTION TO PAY $20 MILLION AND COSTS
        OF INVESTIGATION TO RESOLVE PUBLIC WORKS HIRING FRAUD

 Schiavone Admits Fraudulently Reporting That Minority and Disadvantaged Business
 Enterprises Performed Subcontracted Work on Contracts with New York City and New
                                    York State

        Loretta E. Lynch, United States Attorney for the Eastern District of New York,
today announced that Schiavone Construction Co. LLC (Schiavone), a construction
services corporation, will pay the United States $20 million to resolve a multi-agency
joint criminal investigation into fraud the company committed in carrying out various
public works contracts. As part of the resolution, Schiavone admitted that between
2002 and 2007, certain now-former employees falsely and fraudulently reported that
disadvantaged business enterprises (DBE) and minority and women-owned business
enterprises (MWBE) performed subcontracted work on federally funded public works
contracts, including the rehabilitation of New York City subway stations and the
construction of the Croton Water Filtration Plant in the Bronx, when, in fact, non-DBE
and non-MWBE subcontractors performed the work.

       Beginning in 2002, Schiavone executed two contracts with the Metropolitan Transit
Authority (MTA) to perform rehabilitation work of the New York City Subway stations at Times
Square and South Ferry stations, totaling approximately $350 million. The contracts required
that Schiavone comply with the federal DBE program, which was enacted in 1980 to
increase participation of DBE subcontractors in federally funded public construction
contracts.

       Starting in 2004, Schiavone performed work on two contracts, totaling almost $350
million, it had with the Department of Environmental Protection (DEP) associated with
construction of the Croton Water Filtration Plant, which is part of the New York City water
supply system. These contracts required that Schiavone comply with the New York State
MWBE program, established in 1988 to increase participation of minority and women-owned
business enterprises in state and federally funded public construction contracts within New York
State.


         For each of these four projects, Schiavone was obligated to (i) make good faith efforts to
subcontract with specific percentages of certified DBE and MWBE companies; (ii) ensure that
the DBE and MWBE subcontractors actually performed the work subcontracted to them; and
(iii) submit regular reports, called “utilization reports,” to the MTA and DEP, respectively,
listing the amounts of contract funds Schiavone paid to each subcontractor, as well as the
percentage of contract funds paid to each subcontractor out of the overall contract value for that
project.

        However, as Schiavone today acknowledged, some of its employees engaged in a scheme
to defraud the DEP and the MTA by submitting fraudulent utilization reports for all four projects
that falsely represented that work was being performed by certified DBE and MWBE companies,
when it was actually being done by non-DBE and MWBE companies. By engaging in the
scheme, Schiavone violated its contractual obligations under the four contracts, prevented the
DEP and MTA from providing certified DBE and MWBE companies with the percentage of
work for these projects as stated under the DBE and MWBE program rules and regulations, and
denied the work to legitimate DBE and MWBE companies. Schiavone also acknowledged that
the resulting overstatement of actual DBE and MWBE company participation amounted, in the
aggregate, to approximately $20,000,000.

       Under the terms of its non-prosecution agreement with the government, Schiavone
represented that it has undertaken various remedial measures to ensure compliance with the DBE
and MWBE programs for its current and future federally funded capital construction projects.
These measures include: (i) establishing a position for an Ethics and Compliance Officer at
Schiavone; (ii) creating contractor minority compliance manuals, a code of ethics and business
conduct, and mandatory compliance courses for its employees; (iii) removing the Schiavone
employees directly involved with the scheme; and (4) continuing to assist law enforcement in its
ongoing investigation of the fraud regarding the four projects specified in the settlement.
Schiavone has also agreed to pay both the Inspector General for the MTA and the New York
City Department of Investigation the costs they incurred in investigating Schiavone’s fraudulent
conduct, in the respective amounts of $1,833,500 and $539,760.

        “This financial disposition and the remedial measures it mandates demonstrate that this
office will vigorously investigate cases involving violations of federal and state programs
designed to assist disadvantaged enterprises and minority and women-owned
businesses,” stated United States Attorney Lynch. “I extend my appreciation to New
York State Attorney General’s Office - Organized Crime Task Force and to all our
partners in law enforcement for their assistance in the investigation and the successful
resolution of this case.”

       Ned Schwartz, Special Agent-in-Charge for the Inspector General for the United
States Department of Transportation, stated, “Federal transportation grant funds come
with certain conditions. Contractors who do not live up to their end of the bargain will
be held accountable. This investigation and settlement should serve notice that there
are severe consequences for fraudulent acts. Working with our law enforcement
partners, we will continue our vigorous efforts to protect taxpayers’ investment in our
nation’s transportation infrastructure from fraud.”
                                                3

       Marjorie Franzman, Special Agent-in-Charge for the New York Region of the
U.S. Department of Labor’s Office of Inspector General stated, “Companies that
contract with the United States government must do so both fairly and honestly. The
company violated the terms of the contract by knowingly using workers from non-DBE
and MWBE companies, thereby undermining the goal of these programs. My office will
continue to work with its law enforcement partners to fight corruption on federally funded
projects.”

        Rose Gill Hearn, Commissioner, New York City Department of Investigation,
stated,
“Criminal activity, including fraud, has no place in City contracting. This investigation
justly recovered the millions that should have gone to disadvantaged and
minority-owned businesses and is bringing needed change to a large construction
contractor. DOI was pleased to share its expertise on City construction and
procurement and work hand-in-hand with the U.S. Attorney’s Office for the Eastern
District of New York and its law enforcement partners to expose and stop this
corruption.”

       Barry L. Kluger, Inspector General for the MTA, stated, “Today’s case is the
result of our office’s continued focus on protecting the integrity of the MTA’s Minority
and Disadvantaged Business Enterprise Program. I want to thank the U.S. Attorney’s
Office for its vigorous and sustained efforts in pursuing this case. The result
announced today should send a loud and clear message to the construction industry
that we and our investigative and prosecutorial partners are serious about enforcing the
law and that this conduct cannot be business as usual. It will not be tolerated, but will
instead cost violators dearly. The absurd defense that ‘everyone does it’ just does not
wash.”

        Charles R. Pines, Special Agent-in-Charge for the Criminal Investigation Division
for the New York Office of the Internal Revenue Service, stated, “Since 1999 the IRS
has been committed to its law enforcement partners in detecting and rooting out fraud in
the New York metropolitan area’s construction industry. This investigation is a result of
successful team work and cooperation by all the agencies involved. IRC-CI will
continue to lend its expertise in these complex financial investigations, which facilitates
the identification and seizure of the proceeds of illegal activity.

       The government’s case was investigated and litigated by Assistant United States
Attorneys Daniel D. Brownell, Roger A. Burlingame, Richard K. Hayes, Kathleen
Nandan, and Laura Mantell.
